               Most Taxpayers That Could Benefit From the
                Farm Income Averaging Provision Are Not
                                Using It

                                    March 2004

                       Reference Number: 2004-30-085




This report has cleared the Treasury Inspector General For Tax Administration disclosure
review process and information determined to be restricted from public release has been
                              redacted from this document.
                                              DEPARTMENT OF THE TREASURY
                                                    WASHINGTON, D.C. 20220




INSPECTOR GENERAL
     for TAX
  ADMINISTRATION




                                                       March 30, 2004



       MEMORANDUM FOR COMMISSIONER, SMALL BUSINESS/SELF-EMPLOYED
                      DIVISION
                      COMMISSIONER, WAGE AND INVESTMENT DIVISION


       FROM:                         Gordon C. Milbourn III
                                     Acting Deputy Inspector General for Audit

       SUBJECT:                      Final Audit Report - Most Taxpayers That Could Benefit From
                                     the Farm Income Averaging Provision Are Not Using It
                                     (Audit #200330019)


       This report presents the results of our review to identify farmers that could have
       benefited from the Farm Income Averaging provision of the tax law in Tax
       Year (TY) 2001 but did not use this provision to compute their income taxes and to
       determine why they did not use it.
       A provision in the Taxpayer Relief Act of 19971 allowed farmers to elect to compute their
       tax liabilities by averaging, over the prior 3 years, all or a portion of their taxable income
       from farming. This provision was designed to smooth out the economic disparities that
       farmers experience from year to year. The Congress estimated this provision would
       provide about $50 million of tax relief to American farmers in TY 2001.
       In summary, we found that during TY 2001, approximately 52,000 taxpayers used Farm
       Income Averaging (Schedule J) to calculate their individual income taxes.2 However,
       this is less than one-half the number of taxpayers that could have benefited from this tax
       provision.




       1
         Pub. L. No. 105-34, 111 Stat. 788 (codified as amended in scattered sections of 5 U.S.C., 19 U.S.C., 26 U.S.C.,
       29 U.S.C., 31 U.S.C., 42 U.S.C., and 46 U.S.C. app.).
       2
         Based on data provided by the IRS Statistics of Income function.
                                                          2

During a prior audit3 in which we determined that many farmers using Schedule J did
not receive the full tax benefit, we observed that many taxpayers that could have
benefited from the Farm Income Averaging tax provision did not use it. In this current
audit, we designed computer programs to help identify many of these taxpayers,
reviewed a statistical sample of tax returns identified by our computer analyses, and
developed a questionnaire to determine why taxpayers that could have benefited did not
take advantage of this provision.
We estimate over 64,000 taxpayers overpaid their taxes by not taking advantage of this
tax provision.4 These taxpayers overpaid taxes on their TY 2001 individual income tax
returns by more than $33 million. Eighty-nine percent of these returns were prepared
by paid tax preparers.
We contacted some of these taxpayers and their paid preparers and learned that
67 percent of the taxpayers and 17 percent of the paid preparers we contacted were not
aware of the Farm Income Averaging provision. Of those that were aware of the
provision, 33 percent of the taxpayers and 60 percent of the paid preparers mistakenly
believed using the Farm Income Averaging option would have provided no tax benefit.
We probed further and found that among the reasons for these mistakes were:
    •    The taxpayers and/or preparers did not know the Internal Revenue Service (IRS)
         had changed the regulations to allow them to include negative taxable income in
         their averaging calculations.
    •    The taxpayers and/or preparers thought that, since only a fraction of their total
         income was from farming, the benefit of averaging would be negligible.
    •    The preparation software used by the taxpayers and/or preparers had erroneous
         instructions, which led them to believe there would be no benefit.
We recommended the Director, Taxpayer Education and Communication, Small
Business/Self-Employed (SB/SE) Division, work with the Director, Tax Forms and
Publications, Wage and Investment Division, to develop a strategy to further educate
farmers, preparers, and income tax software developers about the availability of,
benefits of, and appropriate regulations related to the Farm Income Averaging provision.
Management’s Response: The Commissioner, SB/SE Division, agreed that developing
a strategy to further educate farmers, preparers, and income tax software developers
about the availability and benefits of the Farm Income Averaging provision will be
beneficial. The Director, Taxpayer Education and Communication, SB/SE Division, will
continue ongoing actions to educate taxpayers, practitioners, and tax software
developers about this provision.

3
  The Internal Revenue Service Acted on Recommendations to Help Farmers Receive the Intended Benefit of the
Farm Income Averaging Provision (Reference Number 2003-30-142, dated July 2003).
4
  Our analyses included only those taxpayers that had income from farming during TY 2001 and had negative farm
income in 1 of the prior 3 years. Taxpayers with relatively large farm income in 1 year and minimal farm income in
prior years may also significantly benefit from this tax provision, and it is reasonable to assume that many of these
taxpayers did not take advantage of this provision as well.
                                             3

Although the IRS believes this provision is fully explained in current forms and
publications, it will add instructional emphasis on the provision if practitioners and
stakeholders in the farming industry indicate it is needed. IRS representatives meet
annually with the National Farm Income Tax Extension Committee to gather input for
the Farmer’s Tax Guide (Publication 225) and will include this issue on the 2004
meeting agenda. Management’s complete response to the draft report is included as
Appendix VI.
Office of Audit Comment: In our opinion, the percentage of taxpayers that could take
advantage of the Farm Income Averaging provision, but are not, warrants more
definitive action from the IRS. Our results indicate ongoing actions to educate
taxpayers, practitioners, and tax software developers about this provision have not been
effective, so continuing those actions most likely will not resolve the problem. Likewise,
adding a meeting agenda item to determine if stakeholders and practitioners believe
instructional emphasis is needed on IRS forms and publications does not suggest a
strong commitment on the IRS’ part to proactively resolve this issue. While we believe
the IRS should take more definitive action to address the issue in this report, we do not
intend to elevate our concern to the Department of the Treasury for resolution.
Although IRS management agreed with the finding and recommendation in our report,
they stated that they did not agree with our estimates of amounts by which taxpayers
had overpaid their taxes by not taking advantage of the Farm Income Averaging
provision. The basis for their disagreement was that the formula we used to determine
a sample size of 100 was the formula for estimating a population proportion (attribute
sample) and not for estimating the actual dollars saved (variable sample). They stated,
“To correctly determine the sample size for estimating actual dollars saved ‘X’ by
computing Schedule J, an estimate of the variance of ‘X’ is needed in a different
formula.”
The IRS’ assertion is incorrect regarding the validity of our estimates. It is not requisite
that the variance of the population be estimated when selecting a sample. The
calculation used to determine the initial sample size is not what determines the validity
of a sample for projecting dollars saved. Rather, it is the methodology used to actually
select the sample and to evaluate the sample results. It is requisite that the variance be
considered when determining the adequacy of a sample for projecting dollars saved and
that it be a factor included when determining the precision or range for which a dollar
projection is accurate at a specified confidence level. We did estimate the population
variance and included it in the calculation of our estimates. It was because of the
population variance that the precision of our estimate was + $7.6 million. We had
discussed this issue with IRS Statistics of Income function personnel during a prior audit
and were told that this methodology was acceptable to them.
However, to further assure ourselves of the validity of our estimates, we provided our
sampling workpapers to an independent sampling specialist. He stated that our
sampling plan was valid, and our 95 percent confidence interval projection for the total
savings for the 69,908 taxpayers in the population was correct.
                                           4

Copies of this report are also being sent to the IRS managers affected by the report
recommendation. Please contact me at (202) 622-6510 if you have questions or
Richard J. Dagliolo, Acting Assistant Inspector General for Audit (Small Business and
Corporate Programs), at (631) 654-6028.
                                Most Taxpayers That Could Benefit
                    From the Farm Income Averaging Provision Are Not Using It




                                                  Table of Contents


Background ............................................................................................... Page 1
The Majority of Taxpayers That Could Benefit From the
Farm Income Averaging Provision Are Not Using It .................................. Page 2
         Recommendation 1: ........................................................................ Page 4

Appendix I – Detailed Objectives, Scope, and Methodology ..................... Page 7
Appendix II – Major Contributors to This Report........................................ Page 10
Appendix III – Report Distribution List ....................................................... Page 11
Appendix IV – Outcome Measures ............................................................ Page 12
Appendix V – Taxpayer and Tax Preparer Questionnaire Results ............ Page 13
Appendix VI - Management’s Response to the Draft Report ..................... Page 15
                         Most Taxpayers That Could Benefit
             From the Farm Income Averaging Provision Are Not Using It

                               A provision in the Taxpayer Relief Act of 19971 allowed
Background
                               farmers to elect to compute their tax liabilities by averaging,
                               over the prior 3 years, all or a portion of their taxable
                               income from farming. This provision was designed to
                               smooth out the economic disparities that farmers experience
                               from year to year. The Congress estimated this provision
                               would provide approximately $50 million of tax relief to
                               American farmers in Tax Year (TY) 2001. The Internal
                               Revenue Service (IRS) designed Farm Income Averaging
                               (Schedule J) for calculating tax liabilities using the
                               averaging method.
                               We recently completed an audit2 to identify taxpayers using
                               the Farm Income Averaging provision for TY 1999 returns
                               but not receiving the full intended benefit of the averaging
                               provision because the IRS originally did not allow farmers
                               to include negative taxable income in their averaging
                               calculations.3 While trying to identify these taxpayers, we
                               observed that many other taxpayers that could have
                               benefited from the Farm Income Averaging provision did
                               not use it. Because this tax provision had been in effect for
                               only 2 years, these taxpayers may have been unaware of its
                               existence. More tax years have now passed. During this
                               audit, we looked at the most recently filed tax returns
                               available to us to determine whether taxpayers are now
                               taking advantage of this tax provision.
                               This review was performed at the Ogden, Utah, office of the
                               Treasury Inspector General for Tax Administration
                               (TIGTA) through analysis and review of IRS data from May
                               through December 2003. The audit was conducted in

                               1
                                 Pub. L. No. 105-34, 111 Stat. 788 (codified as amended in scattered
                               sections of 5 U.S.C., 19 U.S.C., 26 U.S.C., 29 U.S.C., 31 U.S.C.,
                               42 U.S.C., and 46 U.S.C. app.).
                               2
                                 The Internal Revenue Service Acted on Recommendations to Help
                               Farmers Receive the Intended Benefit of the Farm Income Averaging
                               Provision (Reference Number 2003-30-142, dated July 2003).
                               3
                                 The IRS originally interpreted the law to exclude negative income in
                               the averaging calculations. Members of the Senate issued a letter to the
                               IRS stating that this interpretation of the Farm Income Averaging
                               provision was inconsistent with the intent of the Congress. The IRS
                               responded by making the necessary changes to the regulations to enable
                               farmers to use negative taxable income in their averaging calculations.
                               In response to our report on this issue, the IRS sent letters to over
                               4,000 taxpayers that were affected by this misinterpretation.
                                                                                                Page 1
                            Most Taxpayers That Could Benefit
                From the Farm Income Averaging Provision Are Not Using It

                                  accordance with Government Auditing Standards. Detailed
                                  information on our audit objectives, scope, and
                                  methodology is presented in Appendix I. Major
                                  contributors to the report are listed in Appendix II.
                                  For TY 2001, approximately 52,000 taxpayers used Farm
The Majority of Taxpayers That
                                  Income Averaging (Schedule J) to calculate their individual
Could Benefit From the Farm
                                  income taxes.4 However, using computer analyses and
Income Averaging Provision Are
                                  statistical sampling, we identified at least 64,315 additional
Not Using It
                                  taxpayers that could have benefited from the Farm Income
                                  Averaging provision but did not use it.
                                  Although it is not necessary for taxpayers to have realized a
                                  loss to benefit from the Farm Income Averaging provision,
                                  we determined that among those very likely to benefit from
                                  the provision would be taxpayers that had income from
                                  farming during the current year but had negative taxable
                                  income in 1 of the prior 3 years.5
                                  Using computer analyses, we identified 78,621 individual
                                  income taxpayers that had farm income of $500 or more
                                  during TY 2001 and had negative taxable income in 1 of the
                                  prior 3 years. (See Appendix I for more information
                                  regarding the selection criteria we used in our computer
                                  analyses.) Only 8,713 of these taxpayers calculated their
                                  income taxes using Schedule J. From the remaining
                                  69,908 taxpayers, we selected a statistical sample of 100 and
                                  found that 92 of the taxpayers (92 percent) could have
                                  reduced their tax liabilities and saved money had they
                                  calculated their taxes using Schedule J. Figure 1 illustrates
                                  the percentage of these taxpayers that could have benefited
                                  from the Farm Income Averaging provision but did not use
                                  it. These taxpayers overpaid their taxes by an average of
                                  $514 each. Eighty-nine percent of these taxpayers had their
                                  tax returns prepared by paid tax preparers.




                                  4
                                    Based on data provided by the IRS Statistics of Income function.
                                  5
                                    Taxpayers with relatively large farm income in 1 year and minimal
                                  farm income in prior years may also significantly benefit from this tax
                                  provision. These taxpayers were not included in our analyses, but it is
                                  reasonable to assume that the occurrence rate of these taxpayers not
                                  taking advantage of the Farm Income Averaging provision would be
                                  similar to that of the taxpayers in our sample.
                                                                                                   Page 2
            Most Taxpayers That Could Benefit
From the Farm Income Averaging Provision Are Not Using It

                                                Figure 1:


                           Taxpayers With $500 or More of Farm Income in
                                Tax Year 2001 and Losses in 1 of the
                                           Prior 3 Years


                                       64,315




                                                                   5,593
                                                        8,713




                          Taxpayers That Could Have Benefited From Averaging but Did
                          Not File Schedule J (64,315)
                          Taxpayers That Would Not Have Benefited From Filing
                          Schedule J (5,593)
                          Taxpayers That Filed Schedule J (8,713)


                  Source: TIGTA analysis and statistical sample of taxpayer accounts
                  with farm income of $500 or more.

                  To determine why these taxpayers did not take advantage of
                  the Farm Income Averaging provision, we developed a
                  questionnaire and attempted to contact them (and their paid
                  tax preparers when the taxpayers gave us permission). We
                  contacted 52 taxpayers and 30 paid tax preparers and
                  learned that 67 percent of the taxpayers and 17 percent of
                  the paid preparers were not aware of the Farm Income
                  Averaging provision.
                  Of those that were aware of the provision, 33 percent of the
                  taxpayers and 60 percent of the paid preparers mistakenly
                  believed using the Farm Income Averaging option would
                  have provided no tax benefit. We probed further and found
                  that among the reasons for these mistakes were:
                  •   The taxpayers and/or preparers did not know the IRS
                      had changed the regulations to allow them to include
                      negative taxable income in their averaging calculations.



                                                                                Page 3
            Most Taxpayers That Could Benefit
From the Farm Income Averaging Provision Are Not Using It

                  •   The taxpayers and/or preparers thought that, since only a
                      fraction of their total income was from farming, the
                      benefit of averaging would be negligible.
                  •   The preparation software used by the taxpayers and/or
                      preparers had erroneous instructions, which led them to
                      believe there would be no benefit.6
                  See Appendix V for more detailed information regarding
                  our questionnaires.
                  The IRS has attempted to educate taxpayers and tax
                  preparers about this tax provision through IRS publications.
                  Normally, the onus is on taxpayers or their preparers to stay
                  informed of tax law changes and new tax provisions.
                  However, the inordinate number of taxpayers not using a tax
                  provision that could save them significant tax dollars
                  indicates a need for additional education efforts by the IRS.
                  The IRS’ mission of helping taxpayers understand their tax
                  responsibilities includes helping them legally minimize their
                  tax burden. This is particularly important for this issue
                  because the IRS originally misinterpreted the Congress’
                  intent when implementing the provision and issued
                  instructions and proposed regulations that made the
                  provision much less attractive to taxpayers.
                  Based on the results of our computer analyses and statistical
                  samples, we estimate that approximately 64,315 taxpayers
                  meeting our sample criteria overpaid their TY 2001
                  individual income taxes by more than $33 million (see
                  Appendix IV). In addition, it is likely that many other
                  taxpayers with large variances in farm income, but not
                  meeting our specific criteria, overpaid their taxes as well.

                  Recommendation

                  1. The Director, Taxpayer Education and Communication,
                     Small Business/Self-Employed (SB/SE) Division,
                     should work with the Director, Tax Forms and
                     Publications, Wage and Investment Division, to develop
                     a strategy to further educate farmers, preparers, and

                  6
                   The TIGTA is initiating an audit to determine whether the IRS has an
                  adequate process to ensure tax software developers are provided with
                  accurate tax law specifications (Audit Number 200440028).
                                                                                 Page 4
            Most Taxpayers That Could Benefit
From the Farm Income Averaging Provision Are Not Using It

                      income tax software developers about the availability
                      and benefits of the Farm Income Averaging provision.
                      Specific and descriptive language should be used to
                      inform these groups that the method for calculating the
                      tax using this provision has changed from the method
                      originally allowed and is now more favorable to the
                      taxpayer, and that the taxpayer may benefit even if only
                      a portion of his or her income is from farming.
                      IRS-sponsored tax symposiums might be another
                      effective forum through which to disseminate this
                      information.
                  Management’s Response: The Commissioner, SB/SE
                  Division, agreed that developing a strategy to further
                  educate farmers, preparers, and income tax software
                  developers about the availability and benefits of the Farm
                  Income Averaging provision will be beneficial. The
                  Director, Taxpayer Education and Communication, SB/SE
                  Division, will continue ongoing actions to educate
                  taxpayers, practitioners, and tax software developers about
                  this provision.
                  Although the IRS believes this provision is fully explained
                  in current forms and publications, it will add instructional
                  emphasis on the provision if practitioners and stakeholders
                  in the farming industry indicate it is needed. IRS
                  representatives meet annually with the National Farm
                  Income Tax Extension Committee to gather input for the
                  Farmer’s Tax Guide (Publication 225) and will include this
                  issue on the 2004 meeting agenda.
                  Office of Audit Comment: In our opinion, the percentage of
                  taxpayers that could take advantage of the Farm Income
                  Averaging provision, but are not, warrants more definitive
                  action from the IRS. Our results indicate ongoing actions to
                  educate taxpayers, practitioners, and tax software
                  developers about this provision have not been effective, so
                  continuing those actions most likely will not resolve the
                  problem. Likewise, adding a meeting agenda item to
                  determine if stakeholders and practitioners believe
                  instructional emphasis is needed on IRS forms and
                  publications does not suggest a strong commitment on the
                  IRS’ part to proactively resolve this issue.

                                                                        Page 5
            Most Taxpayers That Could Benefit
From the Farm Income Averaging Provision Are Not Using It

                  Although IRS management agreed with the finding and
                  recommendation in our report, they stated that they did not
                  agree with our estimates of amounts by which taxpayers had
                  overpaid their taxes by not taking advantage of the Farm
                  Income Averaging provision. The basis for their
                  disagreement was that the formula we used to determine a
                  sample size of 100 was the formula for estimating a
                  population proportion (attribute sample) and not for
                  estimating the actual dollars saved (variable sample). They
                  stated, “To correctly determine the sample size for
                  estimating actual dollars saved ‘X’ by computing
                  Schedule J, an estimate of the variance of ‘X’ is needed in a
                  different formula.”
                  The IRS’ assertion is incorrect regarding the validity of our
                  estimates. It is not requisite that the variance of the
                  population be estimated when selecting a sample. The
                  calculation used to determine the initial sample size is not
                  what determines the validity of a sample for projecting
                  dollars saved. Rather, it is the methodology used to select
                  the sample and to evaluate the sample results. It is requisite
                  that the variance be considered when determining the
                  adequacy of a sample for projecting dollars saved and that it
                  be a factor included when determining the precision or
                  range for which a dollar projection is accurate at a specified
                  confidence level. We did estimate the population variance
                  and included it in the calculation of our estimates. It was
                  because of the population variance that the precision of our
                  estimate was + $7.6 million. We had discussed this issue
                  with IRS Statistics of Income function personnel during a
                  prior audit and were told that this methodology was
                  acceptable to them.
                  However, to further assure ourselves of the validity of our
                  estimates, we provided our sampling workpapers to an
                  independent sampling specialist. He stated that our
                  sampling plan was valid, and our 95 percent confidence
                  interval projection for the total savings for the
                  69,908 taxpayers in the population was correct.




                                                                         Page 6
                               Most Taxpayers That Could Benefit
                   From the Farm Income Averaging Provision Are Not Using It

                                                                                                    Appendix I


                         Detailed Objectives, Scope, and Methodology

The overall objectives of this audit were to identify farmers that could have benefited from the
Farm Income Averaging provision of the tax law in Tax Year (TY) 2001 but did not use this
provision to compute their income taxes and to determine why the farmers did not take
advantage of this tax provision.
To accomplish our objectives, we:
I.      Identified all taxpayers that had positive income from farming during TY 2001 as well as
        negative taxable income in any of the prior 3 years.
        A. Prepared a computer request to identify taxpayers on the Internal Revenue Service’s
           (IRS) Individual Master File1 that had positive farm income in TY 2001 and negative
           taxable income in any of the prior 3 years (TYs 2000, 1999, or 1998).
        B. To verify the information in the database of accounts created by our computer
           request, randomly reviewed 21 returns and researched these returns on the IRS
           Integrated Data Retrieval System (IDRS)2 to confirm the information in our database
           was accurate.
        C. Analyzed our entire database through computerized queries to confirm the taxpayers
           identified in this database had farm income and taxable income losses in any of the
           prior 3 years (TYs 2000, 1999, or 1998).
II.     Determined whether taxpayers were taking advantage of Farm Income Averaging by
        analyzing the database to determine the number of taxpayers that were using the Farm
        Income Averaging (Schedule J) and those that did not file a Schedule J but could have
        benefited by using it.
        A. Analyzed the database to identify the total number of taxpayers that most likely
           would benefit from filing a Schedule J by selecting returns with the following criteria:
           positive farm income in TY 2001, Taxable Income greater than $500 in TY 2001,
           Profit or Loss From Farming (Schedule F) income greater than $500 in TY 2001,
           Alternative Minimum Tax equal to zero in TY 2001, and Taxable Income less than
           zero in 1 of the prior 3 years (TYs 2000, 1999, or 1998). This analysis resulted in the
           identification of a total of 78,621 taxpayers.
        B. Identified the total number of taxpayers that filed a Schedule J from those identified
           in Step II.A. This analysis identified 8,713 taxpayers that filed a Schedule J.

1
  The IRS database that maintains transactions or records of individual tax accounts.
2
  The IRS computer system capable of retrieving or updating stored information; it works in conjunction with a
taxpayer’s account records.
                                                                                                          Page 7
                                  Most Taxpayers That Could Benefit
                      From the Farm Income Averaging Provision Are Not Using It

           C. Determined the number of taxpayers that met the criteria described in Step II.A. for
              TY 2001 but did not file a Schedule J by selecting returns with the following criteria:
              positive farm income in TY 2001, Taxable Income greater than $500 in TY 2001,
              Schedule F income greater than $500 in TY 2001, Alternative Minimum Tax equal to
              zero in TY 2001, no Schedule J filed in TY 2001, and Taxable Income less than zero
              in 1 of the prior 3 years (TYs 2000, 1999, or 1998). This analysis resulted in the
              identification of a total 69,908 taxpayers.
           D. Examined a statistical sample3 of 100 of the 69,908 taxpayers that were identified in
              Step II.C. as meeting the Farm Income Averaging criteria by reviewing them on the
              IDRS and ordering the returns to determine the impact on the taxpayers’ tax liabilities
              for TY 2001. We calculated the tax liabilities for TY 2001 returns with the
              Schedule J allowing them to average their farm income. To ensure our calculations
              were accurate, we requested that IRS employees with experience working the
              Schedule J review 10 returns from our sample and all the returns that had a Net
              Operating Loss.
           E. Developed the outcome measure from the above steps for the taxpayers that were
              qualified to file a Schedule J in TY 2001, but did not, by calculating the average
              change in tax ($514) and applying this to the number of taxpayers identified in the
              database (64,315) that would have benefited from filing a Schedule J.
III.       Determined why farmers are not taking advantage of the Farm Income Averaging
           provision.
           A. Contacted farmers directly and determined their reasons for not taking advantage of
              the provision.
                1) Contacted the Office of Management and Budget to obtain permission to directly
                   contact taxpayers concerning the Farm Income Averaging provision.
                2) Developed a questionnaire to obtain information from taxpayers about the Farm
                   Income Averaging provision.
                3) Using the questionnaire developed in Step III.A.2., attempted to contact the
                   taxpayers selected in the statistical sample of Step II.D. that we had determined
                   could benefit from the Farm Income Averaging provision.
                4) Analyzed the results to determine why taxpayers were not using the Farm Income
                   Averaging provision.
           B. Determined the IRS’ efforts to educate taxpayers and tax preparers of the Farm
              Income Averaging provision of the tax law and the potential benefits.




3
    We used a 95 percent confidence level, an expected error rate of 7 percent, and a precision of + 5 percent.
                                                                                                                  Page 8
                          Most Taxpayers That Could Benefit
              From the Farm Income Averaging Provision Are Not Using It

         1) Reviewed News Releases and Bulletins to determine what efforts were made to
            educate taxpayers and tax preparers.
         2) Interviewed management to determine the efforts that were made to inform
            taxpayers and tax preparers of the Farm Income Averaging provision.
IV.   Contacted the Statistical Information Services office of the IRS Statistics of Income
      function to obtain data regarding the number of U.S. Individual Income Tax Returns
      (Form 1040) containing Schedules J in TY 2001.




                                                                                         Page 9
                           Most Taxpayers That Could Benefit
               From the Farm Income Averaging Provision Are Not Using It

                                                                                 Appendix II


                           Major Contributors to This Report

Richard J. Dagliolo, Acting Assistant Inspector General for Audit (Small Business and Corporate
Programs)
Kyle R. Andersen, Acting Director
L. Jeff Anderson, Acting Audit Manager
W. George Burleigh, Senior Auditor
Greg A. Schmidt, Senior Auditor
James E. Adkisson, Computer Specialist




                                                                                       Page 10
                          Most Taxpayers That Could Benefit
              From the Farm Income Averaging Provision Are Not Using It

                                                                               Appendix III


                                Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Acting Deputy Commissioner, Small Business/Self-Employed Division SE:S
Deputy Commissioner, Wage and Investment Division SE:W
Director, Customer Assistance, Relationships, and Education, Wage and Investment Division
SE:W:CAR
Director, Taxpayer Education and Communication, Small Business/Self-Employed Division
SE:S:T
Director, Communications and Liaison, Small Business/Self-Employed Division SE:S:M:CL
Director, Media and Publications, Wage and Investment Division SE:W:CAR:MP
Director, Tax Forms and Publications, Wage and Investment Division SE:W:CAR:MP:T
Staff Assistant, Small Business/Self-Employed Division SE:S
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaisons:
       Commissioner, Small Business/Self-Employed Division SE:S:COM
       Commissioner, Wage and Investment Division SE:W:S:PA




                                                                                     Page 11
                                 Most Taxpayers That Could Benefit
                     From the Farm Income Averaging Provision Are Not Using It

                                                                                                       Appendix IV


                                               Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective action will have on tax administration. This benefit will be incorporated into our
Semiannual Report to the Congress.
Type and Value of Outcome Measure:
•      Taxpayer Rights and Entitlements – Potential; $33,057,910 in overpaid tax from
       64,315 taxpayer accounts (see page 2).
Methodology Used to Measure the Reported Benefit:
Using computer programs, we identified 206,752 taxpayer accounts on the Internal Revenue
Service’s (IRS) Individual Master File1 with positive farm income in Tax Year (TY) 2001 and a
loss in 1 of the prior 3 years. We downloaded information from these accounts into our own
database.
We reduced the number of accounts in our database to 78,621 by identifying taxpayer accounts
with farm income of $500 or more, Taxable Income of $500 or more, no Alternative Minimum
Tax in TY 2001, and a loss in 1 of the prior 3 years. We found 8,713 of these accounts had used
a Farm Income Averaging (Schedule J) to calculate their TY 2001 taxes, leaving 69,908 accounts
in our database.
We selected a statistical sample of 100 accounts from the population of 69,908 accounts that
remained. Our sample size was determined based on a 95 percent confidence level, an expected
error rate of 7 percent, and a precision of + 5 percent. The actual error rate from our sample was
8 percent. There were 92 of the 100 returns that we reviewed that would benefit from averaging
the farm income. The average tax savings from completing a Schedule J for TY 2001 and
averaging the farm income for the 92 returns reviewed was $514 per return. When this average
adjustment is projected to 92 percent of the population of 69,908, it resulted in 64,315 taxpayers
and a total of $33,057,9102 in overpaid taxes.




1
    The IRS database that maintains transactions or records of individual tax accounts.
2
    This point estimate is based on a 95 percent confidence level and a precision of + $7.6 million.



                                                                                                            Page 12
                              Most Taxpayers That Could Benefit
                  From the Farm Income Averaging Provision Are Not Using It

                                                                                                    Appendix V


                      Taxpayer and Tax Preparer Questionnaire Results

We requested and obtained approval from the Office of Management and Budget to
contact taxpayers to determine why farmers or preparers were not using Farm Income
Averaging (Schedule J) to calculate income taxes on their Tax Year (TY) 2001 U.S. Individual
Income Tax Returns (Form 1040).
We sent questionnaires to 92 taxpayers that would have paid less income tax had they computed
their TY 2001 income taxes using Schedule J. The purpose of the questionnaires to taxpayers
was to determine why the taxpayers did not use Schedule J if they prepared their own tax returns
and, if their returns were prepared by paid tax preparers, to obtain permission to contact their
preparers. The purpose of the questionnaires to tax preparers was to determine why they did not
use Schedule J when preparing their clients’ tax returns.
Taxpayer Responses
We obtained responses from 52 taxpayers and found that 67 percent of the taxpayers were not
aware of the Farm Income Averaging provision and 23 percent were aware of the provision. The
other 10 percent either did not respond to that question on our questionnaire, or did not recall if
they were aware of the provision when they prepared their tax return.
Paid Preparer Responses
Through our contact with the 52 taxpayers above, we obtained permission and were able to
contact 30 paid tax preparers. The questions we asked these preparers and their answers are
summarized below:
1) At the time you prepared your client’s TY 2001 Form 1040, were you aware of the Farm
   Income Averaging provision?
         •   Yes – 83 percent.
         •   No – 17 percent.
2) If you answered yes, please indicate why you did not calculate the tax using Schedule J.1
         •   Thought there would be no benefit2 – 60 percent.
         •   Oversight – 20 percent.

1
  The percentages indicated for this question were based on the 25 preparers that were aware of the Farm Income
Averaging provision.
2
  This figure includes those preparers that did not know the IRS had changed the regulations to allow negative
taxable income in an averaging calculation; those that used software with inappropriate instructions that led them to
believe there would be no benefit; and those that thought since only a fraction of the total income was from farming,
the benefit of averaging would be negligible.
                                                                                                            Page 13
                               Most Taxpayers That Could Benefit
                   From the Farm Income Averaging Provision Are Not Using It

          •   Miscellaneous reasons – 20 percent.
3) Are you aware of the Internal Revenue Service’s (IRS) Bulletins for farmer groups and
   preparers?
          •   Yes – 60 percent.
          •   No – 40 percent.
4) Do you use the IRS Internet site to review for tax law changes?
          •   Yes – 77 percent.
          •   No – 23 percent.
5) Were you aware changes were made to the IRS’ tax regulations in TY 2000 that enabled
   farmers to use negative taxable income in the income averaging computation?
          •   Yes – 67 percent.
          •   No – 30 percent.
          •   Not sure – 3 percent.
6) If you answered yes to question 5, how did you learn about the change?
          •   Tax symposium – 53 percent.
          •   IRS Publication 2253 – 7 percent.
          •   Other – 7 percent.
          •   Not applicable – 33 percent.
              (Preparer was not aware of the provision at all or was not aware the provision had
              changed to allow the use of negative taxable income.)




3
    Farmer’s Tax Guide.
                                                                                            Page 14
            Most Taxpayers That Could Benefit
From the Farm Income Averaging Provision Are Not Using It

                                                            Appendix VI


      Management’s Response to the Draft Report




                                                                 Page 15
            Most Taxpayers That Could Benefit
From the Farm Income Averaging Provision Are Not Using It




                                                            Page 16
            Most Taxpayers That Could Benefit
From the Farm Income Averaging Provision Are Not Using It




                                                            Page 17
            Most Taxpayers That Could Benefit
From the Farm Income Averaging Provision Are Not Using It




                                                            Page 18
